BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-1257
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,

Petitioners,
V.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Kentucky Secretary of State
Michael Adams, Louisiana Secretary of State R. Kyle
Ardoin, and Missouri Secretary of State John R.
Ashcroft as Amici Curiae in Support of the Petitioners
contains 2,415 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on June 1, 2020.

p

DonnaJ. Wol0
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

[seal]

Notary Public

~1

)HN O ALLAGHER

• 1~ .ury

Public, Slate of Ohio
Comrnission Expires
February 14, 2023

